FILED: September 29, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6816
(1:19-cv-01 397-AJT-IDD)

TERRANCE LEON WASHINGTON
Petitioner - Appellant
v.
CRYSTAL WILLETT, Superintendent of Meherrin River Regional Jail
Respondent - Appellee

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

RECEIVED
OCT 1 3 2020
OFFICE OF THE CLERK
SUPREME COURT 1IS

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-6816

TERRANCE LEON WASHINGTON,
Petitioner - Appellant,
v.
CRYSTAL WILLETT, Superintendent of Meherrin River Regional Jail,
Respondent - Appellee.

Appeal from the United States District Court for the Eastern District of Virginia, at
Alexandria. Anthony John Trenga, District Judge. (l:19-cv-01397-AJT-IDD)
Submitted: September 24, 2020

Decided: September 29, 2020

Before HARRIS and RICHARDSON, Circuit Judges, and TRAXLER, Senior Circuit
Judge.
Affirmed by unpublished per curiam opinion.
Terrance Leon Washington, Appellant Pro Se.
.Unpublished opinions are not binding precedent in this circuit.

•** .

*

PER CURIAM:
Terrance Leon Washington appeals the district court’s order dismissing without
prejudice his 28 U.S.C. § 2241 petition for failure to comply with the court’s order to show
cause why his petition should not be dismissed as moot.* On appeal, we confine our review
to the issues raised in the informal brief. See 4th Cir. R. 34(b). Because Washington’s
informal brief does not challenge the basis for the district court’s disposition, he has
■forfeited appellate review of the court’s order. See Jackson v. Lightsey, 775 F.3d 170,177
(4th Cir. 2014) (“The informal brief is an important document; under Fourth Circuit rules,
our review is limited to issues preserved in that brief.”). Accordingly, we affirm the district
court’s order. We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
AFFIRMED

* Because the district court dismissed Washington’s action “for procedural reasons
unrelated to the contents of the pleadings,” we have jurisdiction over this appeal. Goode
v. Cent. Va. Legal Aid Soc’y, Inc., 8(17 F.3d 619, 624 (4th Cir. 2015); see Bing v. Brivo
Sys., LLC, 959 F.3d 605, 611-12 (4th Cir. 2020) (discussing factors courts consider in
determining whether order is final and appealable).
2

Case l:19-cv-01397-AJT-IDD Document 18 Filed 05/13/20 Page 1 of 2 PagelD# 567

IN THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF VIRGINIA
Alexandria Division
Terrance Leon Washington,
Petitioner,
v.

Crystal Willett,
Respondent.

)
)
)
)
)
)
)

l:19cv!397 (AJT/IDD)

ORDER
By Order dated March 25, 2020, the Court instructed pro se petitioner Terrence L.
Washington to show cause within twenty-one days why his petition for a writ of habeas corpus
brought under 28 U.S.C. § 2241 should not be dismissed as moot. [Dkt. No. 17]. With the
fourteen-day extension for all filing deadlines on or before April 15, 2020, granted by General
Order No. 2020-07, Washington was required to show cause by April 29, 2020. That deadline
has passed, and Washington has submitted nothing further in this action. Therefore, given the
Court’s inherent authority to manage its docket, see Goodyear Tire & Rubber Co. v. Haeger. 137
S. Ct. 1178, 1186 (2017), and the criteria for dismissals under Rule 41(b) set forth in Attkisson v.
Holder. 925 F.3d 606, 625 (4th Cir. 2019), the Court will dismiss this civil action without
prejudice based on Washington’s failure to comply with the Court’s Order.
Accordingly, it is hereby
ORDERED that this civil action be and is DISMISSED WITHOUT PREJUDICE.
To appeal this decision, petitioner must file a written notice of appeal with the Clerk’s
office within thirty (30) days of the date of this Order. See Fed. R. App. P. 4(a). A written notice
of appeal is a short statement indicating a desire to appeal and including the date of the Order

Case l:19-cv-01397-AJT-IDD Document 18 Filed 05/13/20 Page 2 of 2 PagelD# 568

4

petitioner wishes to appeal. Failure to file a timely notice of appeal waives the right to appeal this

1

I

a

decision.
The Clerk is directed to send a copy of this Order to petitioner and to close this civil

"i

action.

Anthony JrTrenga
. UnitedrSt/ites District Judge
Entered this 13th day of May 2020.
Alexandria, Virginia

i

i

i

■ V

S

i

2

.!

